                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION
Office of Inspector General—Office of Audit




                                              HIGH GROWTH JOB TRAINING INITIATIVE:
                                              DECISIONS FOR NON-COMPETITIVE
                                              AWARDS NOT ADEQUATELY JUSTIFIED




                                                                  Date Issued: November 2, 2007
                                                                  Report Number: 02-08-201-03-390
U.S. Department of Labor                               November 2007
Office of Inspector General
Office of Audit                                        HIGH GROWTH JOB TRAINING INITIATIVE:
                                                       DECISIONS FOR NON-COMPETITIVE
                                                       AWARDS NOT ADEQUATELY JUSTIFIED
BRIEFLY…                                               WHAT OIG FOUND
Highlights of Report Number: 02-08-201-03-390, to
the Assistant Secretary for Employment and             ETA could not demonstrate that it followed
Training.                                              proper procurement procedures in 35 of 39
                                                       tested non-competitive awards (90 percent).
WHY READ THE REPORT                                    These 35 awards totaled $57 million.
The High Growth Job Training Initiative (HGJTI)        Specifically, decisions to award 10 non-
is a strategic effort to prepare workers to take       competitive grants were not adequately
advantage of new and increasing job                    justified, reviews of unsolicited proposals were
opportunities in high growth, high demand, and         not consistently documented, and matching
economically vital sectors of the American             requirements of $34 million were not carried
economy. The purpose of HGJTI is to target             forward in grant modifications.
education and skills development resources
toward helping workers gain skills needed to           These failures to follow proper procurement
build successful careers in these and other            procedures resulted from a control environment
growing industries.                                    that did not ensure adherence to applicable
                                                       criteria, nor that decisions to award grants non-
During the period July 1, 2001, through March          competitively were adequately documented.
31, 2007, the Employment and Training                  ETA could not demonstrate that it made the
Administration (ETA) awarded 157 HGJTI                 best decisions in awarding grants to carry out
grants totaling $271 million. Of this amount,          HGJTI. Further, since matching requirements
ETA accepted unsolicited proposals and                 were not carried forward in some grant
awarded 133 grants totaling $235 million (87           modifications, the programs and levels of
percent) through non-competitive procurement           services provided could be significantly reduced
methods. One grant for $7 million was awarded          from those intended in the original grants.
to a specific entity based on Congressional
direction. The remaining 23 grants for $29             WHAT OIG RECOMMENDED
million were awarded competitively.
                                                       We made eight recommendations to the
WHY OIG DID THE AUDIT                                  Assistant Secretary for Employment and
In response to a request from Senator Tom              Training to improve management controls over
Harkin, Chairman of the Subcommittee on                grant awards. In summary, we recommended
Labor, Health and Human Services, and                  the Assistant Secretary take steps to ensure:
Education and Related Agencies, the Office of          competition is encouraged for discretionary
Inspector General (OIG) conducted a                    grant awards; award decisions are adequately
performance audit of the HGJTI grant                   documented; and matching requirements of
procurement process. Our audit objective was           $34 million are carried forward in grant
to determine if proper procurement procedures          modifications.
were followed in awarding non-competitive
HGJTI grants.                                          The Assistant Secretary for Employment and
                                                       Training generally agreed with our
                                                       recommendations but strongly disagreed with
READ THE FULL REPORT
                                                       findings related to the procurement practices
To view the report, including the scope,               utilized for non-competitive grants. The
methodology, and full agency response, go to:
                                                       Assistant Secretary further stated that sufficient
http://www.oig.dol.gov/public/reports/oa/2008/02-08-   documentation had been provided to support
201-03-390.pdf                                         that the awards met departmental policy
                                                       regarding non-competitive procurement.
                                                                                      High Growth Job Training Initiative




Table of Contents
                                                                                                                          PAGE

EXECUTIVE SUMMARY ........................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ................................................................ 7

    A. Decisions to Award 10 Non-Competitive Grants Were
       Not Adequately Justified ........................................................................................... 9

    B. Reviews of Unsolicited Proposals Were Not Consistently Documented ........... 11

    C. Required Conflict of Interest Certifications Were Not Documented .................... 13

    D. Matching Requirements of $34 Million Were Not Carried
       Forward in Grant Modifications .............................................................................. 14


EXHIBIT

    Grant File Review Summary ......................................................................................... 19

APPENDICES

    A. Background............................................................................................................... 23

    B. Objective, Scope, Methodology, and Criteria......................................................... 25

    C. Acronyms and Abbreviations.................................................................................. 29

    D. Agency Response .................................................................................................... 31




U.S. Department of Labor – Office of Inspector General                                                                           1
Report Number: 02-08-201-03-390
High Growth Job Training Initiative




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                      U.S. Department of Labor – Office of Inspector General
                                                           Report Number: 02-08-201-03-390
                                                          High Growth Job Training Initiative



Executive Summary
In response to a request from Senator Tom Harkin, Chairman of the Subcommittee on
Labor, Health and Human Services, and Education and Related Agencies, the Office of
Inspector General (OIG) conducted a performance audit of the High Growth Job
Training Initiative (HGJTI) grant procurement process. The audit objective was to
determine if proper procurement procedures were followed in awarding non-competitive
HGJTI grants.

HGJTI was a strategic effort to prepare workers to take advantage of new and
increasing job opportunities in high growth, high demand, and economically vital sectors
of the American economy. Fields like health care and advanced manufacturing have
jobs and solid career paths left vacant due to a lack of people qualified to fill them. The
Employment and Training Administration’s (ETA), Business Relations Group (BRG)
served as the program office responsible for HGJTI. BRG applied extensive effort
researching and identifying 13 high growth initiative areas and documenting the
particular industry challenges faced by each sector. The purpose of HGJTI is to target
education and skills development resources toward helping workers gain skills needed
to build successful careers in these and other growing industries.

From July 1, 2001, through March 31, 2007, ETA awarded 157 HGJTI grants totaling
$271 million. Of this amount, ETA accepted unsolicited proposals and awarded 133
grants totaling $235 million (87 percent) through non-competitive procurement methods.
One grant for $7 million was awarded to a specific entity based on Congressional
direction. The remaining 23 grants for $29 million were awarded competitively.

Audit Results

Our audit of 39 sampled non-competitive HGJTI grants totaling $70 million found that for
35, or 90 percent, of the grants awarded, ETA could not demonstrate that proper
procurement procedures were followed. For the 35 grants totaling $57 million, there
were 69 specific occurrences where ETA could not demonstrate proper procurement
procedures were followed:

   •   Decisions to award 10 non-competitive grants were not adequately justified
       (14 occurrences);

   •   Reviews of unsolicited proposals were not consistently documented
       (27 occurrences);

   •   Required conflict of interest certifications were not documented (19 occurrences);
       and

   •   Matching requirements of $34 million were not carried forward in grant
       modifications (9 occurrences).


U.S. Department of Labor – Office of Inspector General                                      3
Report Number: 02-08-201-03-390
High Growth Job Training Initiative


These occurrences resulted from a control environment that did not ensure adherence
to applicable criteria, nor that decisions to award grants non-competitively were
adequately documented. By relying on non-competitive awards, ETA could not
demonstrate that it made the best decisions in awarding grants to carry out HGJTI.
Further, since matching requirements were not carried forward in grant modifications,
the programs and levels of services provided could be significantly reduced from those
intended in the original grants.

Federal laws and regulations encourage competition in assistance programs where
appropriate, in order to identify and fund the best possible projects. The Department of
Labor Manual Series (DLMS) provisions governing DOL procurement and grant
operations provide that with limited exceptions, competition is the appropriate method of
awarding discretionary grants.

The Administrator, Office of Workforce Investment, stated that ETA awarded the first
round of grants non-competitively with the intent to move to competitive opportunities in
future rounds, and that the non-competitive route allowed ETA to fund demonstration
grants that closely aligned with each of the workforce challenges and solutions identified
by industry. During the period July 1, 2001, through March 31, 2007, ETA received
unsolicited proposals and awarded grants through non-competitive procurement
methods. For Fiscal Year 2007 (subsequent to the audit period), ETA was required by
Congress to award HGJTI grants competitively. However, this requirement is only
applicable to the appropriation year in which it appears. If the requirement is not
included in future appropriations, then there are no further statutory requirements that
such grants be awarded competitively.

Recommendations

We recommend the Assistant Secretary for Employment and Training ensure:

1.     Competition is encouraged when awarding discretionary grants.

2.     Policy is established for documenting all decisions and discussions that lead to
       actions by DOL officials that affect how and to whom grant funds are distributed.

3.     Any future non-competitive awards are properly justified and based on
       appropriate DLMS exceptions.

4.     Decisions to exempt proposals from PRB review are properly researched, valid,
       and documented.

5.     Agency officials are fully trained and aware of the procurement procedures for
       non-competitive awards, including documenting the decision-making process.

6.     A separate document for conflict of interest certifications is completed and
       maintained.


4                                       U.S. Department of Labor – Office of Inspector General
                                                            Report Number: 02-08-201-03-390
                                                         High Growth Job Training Initiative




7.     Matching requirements of $34 million are carried forward in grant modifications.

8.     All HGJTI grants with matching requirements are reviewed to ensure matching
       requirements are maintained.

Agency Response

The Assistant Secretary for Employment and Training agreed that documentation could
be improved and generally concurred with the recommendations. However, ETA
strongly disagreed with findings related to the procurement practices utilized for
non-competitive grants under HGJTI, stating that sufficient documentation was provided
to support that grants met DLMS exceptions. The Assistant Secretary also stated
non-competitive awards were permissible if certain criteria were met, since Federal law
only encourages competitive procurement practices, and that ETA has actively used
competition as the vehicle for awarding HGJTI grants. ETA disagreed that
inconsistencies in ETA's internal processes may have led to funding less than the "best"
grants. ETA’s response stated that a $7 million grant with which we took exception in
the draft report was awarded in response to Congressional direction.

The ETA response is included in its entirety in Appendix D.

OIG Conclusion

ETA generally agreed with our recommendations. However, since ETA did not provide
any specific action plan, the recommendations are unresolved.

ETA provided additional documentation showing that the $7 million grant award was
based on Congressional direction, and we have adjusted the final report accordingly.
ETA did not provide any additional documentation demonstrating proper procurement
procedures were followed in awarding non-competitive grants. ETA maintains that
there were no specific requirements to document procurement decisions. Proper
stewardship of Government funds necessitates maintaining documentation sufficient to
demonstrate that funds were properly expended regardless of any explicit requirement
to do so. Further, GAO’s Standards for Internal Control in the Federal Government,
dated November 1999, require that ". . .all transactions and other significant events
need to be clearly documented, and the documentation should be readily available for
examination." More importantly, however, in response to a prior OIG report, the then-
Deputy Secretary of Labor stated that ETA had implemented enhanced recordkeeping
to promote transparency in the grant making process. Despite this assurance, ETA
continues to assert there is no requirement to maintain documentation. The HGJTI
documentation provided by ETA did not demonstrate what agency officials based their
decisions on at the time of award. Rather, after the fact, ETA attempted to justify how
individual awards met the DLMS exceptions allowing non-competitive procurement.




U.S. Department of Labor – Office of Inspector General                                     5
Report Number: 02-08-201-03-390
High Growth Job Training Initiative


Although ETA responded that it has "actively used competition as the vehicle for
awarding High Growth grants," 87 percent of HGJTI funds were awarded non-
competitively. The justification for awarding a non-competitive grant, when
documented, was based on a comparison of the grant proposal against a set of
attributes established by ETA. It was not based on a comparison of that grant proposal
to other proposals that were not, for whatever reason, singled out for award. Therefore,
we continue to conclude that ETA cannot demonstrate that it identified the best
proposals




6                                      U.S. Department of Labor – Office of Inspector General
                                                           Report Number: 02-08-201-03-390
                                                                   High Growth Job Training Initiative



U.S. Department of Labor                    Office of Inspector General
                                            Washington, DC 20210




                          Assistant Inspector General’s Report




Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210


The OIG conducted a performance audit of the HGJTI grant procurement process. The
audit was initiated in response to a request from Senator Tom Harkin, Chairman of the
Subcommittee on Labor, Health and Human Services, and Education and Related
Agencies. Senator Harkin requested an audit of DOL’s practice of awarding non-
competitive HGJTI grants.

HGJTI was a strategic effort to prepare workers to take advantage of new and
increasing job opportunities in high growth, high demand, and economically vital sectors
of the American economy. Fields like health care, information technology, and
advanced manufacturing have jobs and solid career paths left vacant due to a lack of
people qualified to fill them. ETA, BRG served as the program office responsible for
HGJTI. BRG applied extensive effort researching and identifying 13 high growth
initiative areas and documenting the particular industry challenges faced by each
sector. The purpose of HGJTI is to target education and skills development resources
toward helping workers gain skills needed to build successful careers in these and other
growing industries.

To promote HGJTI, ETA held a total of 52 meetings and seminars around the country.
Meeting participants responded and submitted proposals to ETA. From July 1, 2001,
through March 31, 2007, ETA awarded 157 HGJTI grants totaling $271 million. Of this
amount, ETA accepted unsolicited proposals and awarded 133 grants totaling $235
million (87 percent) through non-competitive procurement methods. One grant for $7
million was awarded to a specific entity based on Congressional direction. The
remaining 23 grants totaling $29 million were awarded competitively.

Our audit objective was to determine if proper procurement procedures were followed in
awarding non-competitive HGJTI grants. To accomplish the objective, a sample of 39
non-competitive HGJTI grants was examined.


U.S. Department of Labor – Office of Inspector General                                               7
Report Number: 02-08-201-03-390
High Growth Job Training Initiative



We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

Objective - Were proper procurement procedures followed in awarding the non-
competitive HGJTI grants?

Results and Findings – ETA could not demonstrate that proper procurement
procedures were followed.

Federal laws and regulations encourage competition in assistance programs where
appropriate, in order to identify and fund the best possible projects. DLMS provisions
governing DOL procurements provide that, with limited exceptions, competition is the
appropriate method of awarding discretionary grants.

ETA officials stated that they did not compare the proposals but evaluated each on its
own merits. Limited information was provided to demonstrate how ETA decided which
proposals to fund. The Administrator, Office of Workforce Investment, stated that ETA
awarded the first round of grants non-competitively with the intent to move to
competitive opportunities in future rounds, and that the non-competitive route allowed
ETA to fund demonstrations that closely aligned with each of the workforce challenges
and solutions identified by industry. For Fiscal Year 2007, subsequent to the audit
period, ETA was required by Congress to award HGJTI grants competitively.

Under the non-competitive award process, DLMS requires that proposed awards meet
specific exceptions to competition and receive a senior level review (PRB 1 review). The
DLMS also requires agency officials to complete a certification that a conflict of interest
does or does not exist. Further, BRG established internal practices for documenting
decisions to fund unsolicited (non-competitive) proposals.

Our audit of 39 non-competitive grant awards found that for 35, or 90 percent, proper
procurement procedures were not adequately documented. These occurrences
resulted from a control environment that did not ensure adherence to applicable criteria,
nor that decisions to award grants non-competitively were adequately documented. By
relying on non-competitive awards, ETA could not demonstrate that it made the best
decisions in awarding grants to carry out HGJTI. Further, since matching requirements
were not carried forward in grant modifications, the programs and levels of services
provided could be significantly reduced from those intended in the original grants.
(Refer to Exhibit for details.)

1
 An entity of DOL that is independent of ETA and responsible for reviewing certain acquisition activities
and recommending approval or disapproval for funding non-competitive awards.



8                                              U.S. Department of Labor – Office of Inspector General
                                                                   Report Number: 02-08-201-03-390
                                                                  High Growth Job Training Initiative



For the 35 grants, there were 69 occurrences 2 where proper procurement procedures
were not adequately documented:

    •   Decisions to award 10 non-competitive grants were not adequately justified
        (14 occurrences);

    •   Reviews of unsolicited proposals were not consistently documented
        (27 occurrences);

    •   Required conflict of interest certifications were not documented (19 occurrences);
        and

    •   Matching requirements of $34 million were not carried forward in grant
        modifications (9 occurrences).

A. Decisions to Award 10 Non-Competitive Grants Were Not Adequately Justified

Our audit of 39 sampled non-competitive grants revealed 10 grants (14 occurrences), or
26 percent, where the justification for the decision to award non-competitively did not
demonstrate how the non-competitive grants met DLMS criteria. This was caused by
the misapplication of DLMS procurement criteria. As a result, ETA could not
demonstrate that it made the best decisions in awarding grants to carry out HGJTI.

Justification for Award Was Not Adequately Demonstrated

The Federal Grant and Cooperative Agreement Act encourages competition in
assistance programs where appropriate, in order to identify and fund the best possible
projects. DLMS 2-836(G), states, “Competition is deemed appropriate in awarding
discretionary grants and cooperative agreements unless one or more…” of eight
specific exceptions applies. (For all eight exceptions, see Appendix B.) For sampled
grants, ETA used the following three exceptions from DLMS 2-836(G)(3),(4), and (5), to
justify non-competitive HGJTI awards:

           •   Services are available from only one responsible source and no substitute
               will suffice; or the recipient has unique qualifications to perform the type of
               activity to be funded.

           •   The recipient has submitted an unsolicited proposal that is unique or
               innovative and has outstanding merit.

           •   The activity will be conducted by an organization using its own resources
               or those donated or provided by third parties, and DOL support of the
               activity would be highly cost effective.

2
 Multiple occurrences were noted within the 35 grants reviewed. Therefore, individual occurrences add
up to more than the total number of grants.


U.S. Department of Labor – Office of Inspector General                                                  9
Report Number: 02-08-201-03-390
High Growth Job Training Initiative



We identified 9 grants where the justification for the decision to award non-competitively
did not demonstrate how DLMS criteria were met. The documentation provided stated
that the grants did not have to go before the PRB. DLMS 2-836(D) notes “…the fact
that certain acquisitions are exempt from review by the PRB does not mean that they
may be entered into indiscriminately.”

For example, documentation provided for a non-competitive award to the State of
Arkansas - Department of Workforce Services for $5,935,402 stated it “is an entity of
state government, so this proposal does not require approval of the Procurement
Review Board.” However, being a state government entity is not one of the DLMS
exemptions allowing an award to be made non-competitively. No additional
documentation or explanation was provided to demonstrate that the grant met one of
the eight specific DLMS exceptions for a non-competitive award.

Required Approval from PRB was Not Obtained

The PRB was established to be an independent board within DOL with the primary
function to serve as a senior level review of proposals for non-competitive acquisitions
and assistance instruments. 3 However, grants were identified that were awarded
without obtaining prior approval from PRB.

DLMS 2-836(B)(4), requires that the PRB review “all proposed acquisitions over the
simplified acquisition threshold as defined in the [FAR] to be awarded under ‘other than
full and open competition’ procedures.” 4 Federal Acquisition Regulation (FAR) Subpart
2.101 states the “‘Simplified Acquisition Threshold’ means $100,000.” Further, DLMS 2-
836(D)(1)(a) states that awards to “Formula allocated or other grants and cooperative
agreements awarded to state or local governments and agencies thereof…” are exempt
from review by the PRB.”

Based on the DLMS requirement, 26 of the 39 unsolicited proposals should have gone
before the PRB for review. We found that 6, or 23 percent, of the 26 grants were
awarded without obtaining prior approval from PRB.

There were two instances where proposals were modified to be under the “simplified
acquisition threshold” of $100,000. For example, the National Center for Neighborhood




3
  Members of the PRB include the following officials or designees: Procurement Executive; Chief
Financial Officer; Solicitor; Assistant Secretary for Policy; The Director, Faith Based and Community
Initiatives; and The Director, Division of Acquisition Management Services.

4
  In 2004, DLMS 2-836(B)(4) was revised to “All proposed acquisitions and assistance actions over the
simplified acquisition threshold as defined in the FAR, which are to be awarded under "other than full and
open competition" procedures…”



10                                             U.S. Department of Labor – Office of Inspector General
                                                                   Report Number: 02-08-201-03-390
                                                           High Growth Job Training Initiative



Enterprise’s (NCNE) award for $99,635 was originally submitted requesting “up to $3.5
million for a three-year period” to create a Workforce Investment Center. Internal ETA
emails stated that ETA wanted to “fast-track” the proposal and that a “…rough recut of
the idea…should keep ETA from the PRB and move forward immediately and allow for
an announcement.”

ETA officials stated they found NCNE’s proposal had merit, “but determined they were
not fully prepared for implementation and chose to award a planning grant.” The scope
of work was modified accordingly, which included a plan for locating a One Stop Career
Center. However, no documentation was provided to support ETA’s explanation for the
revised scope.

The remaining four grantees were classified as state or local government agencies.
However, review of the grant files revealed that these entities were non-profits. For
example, the Application for Federal Assistance (Standard Form 424) submitted by The
Workplace, Inc. (a Workforce Investment Board (WIB) in Connecticut), indicated that the
applicant was a non-profit entity. However, an interoffice memorandum from BRG to
the Office of Grant and Contract Management, dated July 17, 2004, stated, “We have
thoroughly reviewed the proposal and recommend that the proposal be funded, and
have confirmed that applicant is a unit of state and or local governments, not a non-
profit organization. As such, we were not required to present their proposal to the
Department’s Procurement Review Board.” ETA considered a WIB to be a state or
local government agency when in fact it was a non-profit entity.

ETA officials stated they consulted with the Office of the Solicitor of Labor and on that
basis considered an organization a state or local government entity if it was designated
by the state or chief elected official as a program grant recipient and therefore
exempted from PRB review. However, the PRB exemption at DLMS 2-836(D)(1)(a)
applies only when the state or local government agencies apply for the grant and then
specifically designate other entities as program grant recipients. When such entities
apply for Federal grant funds independently from the state or local government, as they
have with respect to HGJTI grants, they are not acting as agents of the state or local
governments.

B. Reviews of Unsolicited Proposals Were Not Consistently Documented

BRG was responsible for making an initial evaluation of unsolicited proposals to
determine whether proposals were in alignment with HGJTI, worthy of funding, and
demonstrated qualities necessary for a non-competitive award. However, reviews of
the unsolicited proposals were not consistently documented. As a result, ETA could not
demonstrate it selected the best or most appropriate proposals.

Employment and Training (ET) Order 1-03, effective April 17, 2003, states “…the
Business Relations Group (BRG) also [has] significant management responsibilities for
grants, research, evaluation and other activities of national scope.” It further states that




U.S. Department of Labor – Office of Inspector General                                      11
Report Number: 02-08-201-03-390
High Growth Job Training Initiative



“Pre-award clearance will be conducted for all prospective grantees for non-formula
grants.” Further, in a prior OIG audit report concerning DOL’s award of National
Emergency Grant funds (Departmental Involvement in Chinatown Manpower Project,
Inc., Contributed to Circumvention of Procurement Rules, OIG Report Number 02-05-
202-01-001, dated August 25, 2005), OIG found that ETA was inconsistent in applying
Federal procurement rules and regulations with which the Department was responsible
for ensuring compliance. The OIG recommended a record be maintained of decisions
and discussions that led to actions by departmental officials that affect how and to
whom grant funds are distributed. In response to the audit report, the then-Deputy
Secretary of Labor stated:

       Effective record-keeping enhances the transparency of the grant-making
       process and reduces the potential for grant decisions to be influenced by
       factors and individuals outside the designated procedures and criteria.
       ETA’s February 2005 internal guidance substantially enhances record-
       keeping procedures related to grant administration, in furtherance of these
       objectives. Nearly every aspect of ETA’s grant-making process is
       recorded, much of it through e-communications...These enhanced record-
       keeping measures ensure that the roles and actions of Department
       officials involved in the grant-making process are fully transparent. These
       measures also reinforce the principle that no official should take actions
       intended to influence the award or distribution of grant funds that are
       external to this systematized, transparent process.

Although ETA officials stated they did not have a required standard of documentation
regarding decisions to fund unsolicited proposals, BRG staff established practices to
prepare an “abstract” to document the initial review of unsolicited proposals.
Specifically, the abstract addressed: the quality of the proposal; the relation of the
proposal to HGJTI; whether the proposal clearly defined its objectives and outcomes;
and the amount requested. The abstracts detailed the viability of the proposals and
contained specific language describing the proposal as unique and innovative, highly
cost effective, or meritorious.

Initial decisions to fund 27 of the 39 sampled grants were not properly documented,
contrary to DOL’s response to the prior OIG audit report. Further, documentation was
not provided to record the decision making process, particularly when concerns were
raised as to whether funding should be provided or increased. Of the 27 grants:

       •   Abstracts were not available for 10 grants.

       •   Abstracts provided for 13 grants were incomplete. Missing were key items
           such as sustainability, replicability, partnerships, key participants, and
           comments pertaining to whether or not to fund the proposal.

       •   Two abstracts contained conflicting information regarding the decision to fund
           the proposal. For example, the abstract for The National Institute for


12                                      U.S. Department of Labor – Office of Inspector General
                                                            Report Number: 02-08-201-03-390
                                                            High Growth Job Training Initiative



           Metalworking Skills, Inc., stated, “It concerns me that we are providing
           additional funding to a project which seems to have already had $7.5 [million]
           of industry funding.” However, the grant was ultimately awarded and
           documentation was not provided that addressed the concerns expressed in
           the abstract.

       •   Two abstracts contained conflicting information regarding the level of funding.
           For example, one abstract for St. Louis City Workforce Investment Board
           conflicted with the decision regarding the funding level. The abstract
           “…recommended limiting funding…for under $500,000.” However, a grant
           was ultimately awarded for $1,500,000.

ETA’s lack of policy and inconsistencies in documenting its decisions to fund unsolicited
proposals demonstrated a lack of oversight. This could result in grants not being
awarded to the best qualified applicants and gives the appearance of a lack of
transparency in the process. The Administrator, Office of Workforce Investment, stated
that ETA never intended the abstract as documentation of the final decision on the
worthiness of a proposal to be funded, and acknowledged that additional documentation
may be valuable to support the decision to fund.

C. Required Conflict of Interest Certifications Were Not Documented

A conflict of interest certification would indicate that the person signing it would be free,
both in fact and in appearance, from personal, external, and organizational impairments.
This would reduce bias in selecting applicants for awards. Conflict of interest
certifications were not maintained for all non-competitive grants as required by DOL
policy. This was because ETA completed conflict of interest certifications only for
proposals submitted to the PRB.

DLMS 2-835 (A) states, “The program official responsible for an ‘other than full and
open competition’ request or a request for contracted advisory and assistance services
shall, as part of the request, explain any past or existing business or personal
relationships with the proposed recipient or certify that none exist.” (Underscoring
added)

ETA officials stated that they fulfilled this requirement by the completion of a certification
in a form entitled "General Information for NE Procurement Review Board." This form
contains a disclosure statement, inclusive of signature, attesting to the DLMS criteria.
Documentation certifying that a conflict of interest does or does not exist was not
provided for 19 grants. These 19 grants were not submitted for review to PRB. Officials
stated “We do not have record of conflict of interest certifications on unsolicited
proposals that did not go through the PRB.”




U.S. Department of Labor – Office of Inspector General                                       13
Report Number: 02-08-201-03-390
High Growth Job Training Initiative



D. Matching Requirements of $34 Million Were Not Carried Forward in Grant
   Modifications

One of the justifications for awarding a grant non-competitively is that the grantee is
providing external resources to support grant activities in addition to the DOL funds it is
seeking. Specifically, DLMS 2-836(G)(5) provides an exception to competitive
procurement procedures in the award of grants and cooperative agreements when,
“The activity will be conducted by an organization using its own resources or those
donated or provided by third parties, and DOL support of the activity would be highly
cost effective.”

From our sample, we identified 9 grants that were awarded based on this DLMS
exception. These grants totaled $17 million and were subsequently modified to realign
the budget. However, the matching requirements totaling $34 million were not carried
forward in grant modifications. If these grantees were not legally required to comply with
the original matching requirements, the programs and levels of services provided could
be significantly reduced from those intended in the original grants.

Conclusion

Our audit of 39 non-competitive grant awards found that for 35, or 90 percent, proper
procurement procedures were not adequately documented. These occurrences
resulted from a control environment that did not ensure adherence to applicable criteria,
nor that decisions to award grants non-competitively were adequately documented. By
relying on sole source awards, ETA could not demonstrate that it made the best
decisions in awarding grants to carry out HGJTI. Further, since matching requirements
were not carried forward in grant modifications, the programs and level of services
provided could be significantly reduced from those intended in the original grants.

Recommendations

We recommend the Assistant Secretary for Employment and Training ensure:

1.     Competition is encouraged when awarding discretionary grants.

2.     Policy is established for documenting all decisions and discussions that lead to
       actions by DOL officials that affect how and to whom grant funds are distributed.

3.     Any future non-competitive awards are properly justified and based on
       appropriate DLMS exceptions.

4.     Decisions to exempt proposals from PRB review are properly researched, valid,
       and documented.

5.     Agency officials are fully trained and aware of the procurement procedures for
       non-competitive awards, including documenting the decision-making process.



14                                       U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 02-08-201-03-390
                                                          High Growth Job Training Initiative



6.     A separate document for conflict of interest certifications is completed and
       maintained.

7.     Matching requirements of $34 million are carried forward in grant modifications.

8.     All HGJTI grants with matching requirements are reviewed to ensure matching
       requirements are maintained.

Agency Response

The Assistant Secretary for Employment and Training agreed that documentation could
be improved and generally concurred with our recommendations. However, ETA
strongly disagreed with findings related to the procurement practices utilized for
non-competitive grants under HGJTI, stating that sufficient documentation was provided
to support that grants met DLMS exceptions. The Assistant Secretary also stated non-
competitive awards were permissible if certain criteria were met, since Federal law only
encourages competitive procurement practices, and that ETA has actively used
competition as the vehicle for awarding HGJTI grants. ETA disagreed that
inconsistencies in ETA's internal processes may have led to funding less than the "best"
grants. ETA’s response stated that a $7 million grant with which we took exception in
the draft report was awarded in response to Congressional direction.

OIG Conclusion

ETA generally agreed with our recommendations. However, since ETA did not provide
any specific action plan, the recommendations are unresolved.

ETA provided additional documentation showing that the $7 million grant award was
based on Congressional direction, and we have adjusted the final report accordingly.
ETA did not provide any additional documentation demonstrating proper procurement
procedures were followed in awarding non-competitive grants. ETA maintains that
there were no specific requirements to document procurement decisions. Proper
stewardship of Government funds necessitates maintaining documentation sufficient to
demonstrate that funds were properly expended regardless of any explicit requirement
to do so. Further, GAO’s Standards for Internal Control in the Federal Government,
dated November 1999, specifically require that ". . .all transactions and other significant
events need to be clearly documented, and the documentation should be readily
available for examination." More importantly, however, in response to a prior OIG
report, the then-Deputy Secretary of Labor stated that ETA had implemented enhanced
recordkeeping to promote transparency in the grant making process. Despite this
assurance, ETA continues to assert there is no requirement to maintain specific
documentation. The HGJTI documentation provided by ETA did not demonstrate what
agency officials based their decisions on at the time of award. Rather, after the fact,
ETA attempted to justify how individual awards met the DLMS exceptions allowing non-
competitive procurement.




U.S. Department of Labor – Office of Inspector General                                     15
Report Number: 02-08-201-03-390
High Growth Job Training Initiative



Although ETA responded that it has "actively used competition as the vehicle for
awarding High Growth grants," 90 percent of HGJTI funds were awarded non-
competitively. The justification for awarding a non-competitive grant, when
documented, was based on a comparison of the grant proposal against a set of values
established by ETA. It was not based on a comparison of that grant proposal to other
proposals that were not, for whatever reason, singled out for award. Therefore, we
continue to conclude that ETA cannot demonstrate that it identified the best proposals.




Elliot P. Lewis
October 5, 2007




16                                     U.S. Department of Labor – Office of Inspector General
                                                           Report Number: 02-08-201-03-390
                                                         High Growth Job Training Initiative




Exhibit




U.S. Department of Labor – Office of Inspector General                                    17
Report Number: 02-08-201-03-390
High Growth Job Training Initiative




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                    U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 02-08-201-03-390
                                                                                                                                                                                   High Growth Job Training Initiative


                                                                                                                                                                                                                       EXHIBIT
                                                                                     For the Period of July 1, 2001 through March 31, 2007
                                                                                                  Grant File Review Summary

                                                                                    Grant        Justification    Modified        Grantee                                                              No Conflict       Matching
                                                                       Award                                                                    Abstract     Abstract    Conflicting    Conflicting
                               Grantee                    State                     Award            Not           Under        Misclassified                                                          of Interest      not carried
                                                                      Amount                                                                    Missing    Incomplete     Decision       Funding
                                                                                     Date       Demonstrated      $100,000        as gov't                                                            Certifications     forward

                                                                                                                 Finding A                                         Finding B                           Finding C        Finding D
 1   The Association of Career Management Firms Interna   DC      $       60,000     06/30/04                                                                                                              X
 2   Pennsylvania Automotive Association Foundation       PA               95,000    10/12/04                                                                                                              X
 3   Center for Energy Workforce Development              DC               98,270    08/09/06         X                                                        X                                           X
 4   Brevard Community College                            FL               98,560    11/23/04                                                      X                                                       X
 5   Association of Career Firms North America            DC               99,000    06/30/05                                                                                                              X
 6   National Center for Neighborhood Enterprise          DC               99,635    06/30/04         X               X                            X                                                       X
 7   National Retail Federation                           DC               99,900    06/30/04         X                                            X                                                       X
 8   Council on Competitiveness                           DC               99,999    06/29/05         X               X                            X                                                       X
 9   U.S. Hispanic Chamber of Commerce                    DC              136,000    12/16/04                                                                                                                               X
10   1199 SEIU League Grant Corporation                   NY              192,500    06/18/04                                                                  X
11   Delaware W orkforce Investment Board                 DE              200,697    07/01/04                                                                                  X                            X
12   Associated General Contractors                       VA              235,500    12/14/04                                                                  X
13   Research Foundation of CUNY                          NY              494,386    06/29/05                                                      X                                                                        X
14   The Manufacturing Institute                          DC              498,520    01/10/05                                                                                                                               X
15   League for Innovation in the Community College       AZ              500,000    06/30/04                                                      X
16   Geospatial Information & Technology Association      CO              695,362    06/30/05                                                                  X                                                            X
17   The National Institute for Metalworking Skills, In   VA              939,815    01/10/05                                                                                  X                                            X
18   MD Department of Labor, Licensing and Regulation     MD            1,000,000    07/01/04         X                                                        X                                            X
19   Arkansas Department of Workforce Services            AR            1,350,665    03/22/07                                                                  X                                            X
20   Massachusetts Biotechnology Education Foundation     MA            1,372,250    07/01/04                                                                  X                                                            X
21   St. Louis City Workforce Investment Board            MO            1,500,000    01/10/05                                                                                               X               X
22   Evangelical Lutheran Good Samaritan Society          SD            1,877,517    06/18/04                                                                  X
23   Greater Peninsula Workforce Development Consortium   VA            1,965,000    05/03/05         X                               X                                                      X              X
24   The Workplace, Inc.                                  CT            2,000,000    11/29/04                                         X                                                                     X
25   Workforce Alliance, Incorporated                     DC            2,325,303    06/30/04                                                                  X
26   The Kentucky Community and Technical College         KY            2,480,852    04/11/06                                         X                        X                                            X
27   San Diego Workforce Partnership, Inc.                CA            2,510,117    07/01/04                                                                  X
28   College of Eastern Utah                              UT            2,737,804    02/03/06                                                                                                                               X
29   Alabama Department of Economic & Community Affairs   AL            3,000,000    09/06/05                                                      X                                                        X
30   West Kentucky Workforce Investment Board             KY            3,025,260    01/12/06         X                               X                                                                     X
31   Home Builders Institute                              DC            4,268,454    12/29/04                                                                  X
32   Board of Supervisors of Community and Technical Co   LA            4,998,800    03/06/06                                                                  X                                            X
33   Downriver Community Conference                       MI            5,000,000    06/30/04                                                     X                                                                         X
34   National Retail Federation Foundation                DC            5,065,000    05/22/03                                                     X                                                                         X
35   State of Arkansas-Department of Workforce Services   AR            5,935,402    03/07/06         X                                           X                                                        X
     Subtotal                                                     $   57,055,568                      8               2               4           10          13               2            2              19               9
36   Shoreline Community College                          WA            1,496,680    02/03/05
37   Community Transportation Development Center          MD            2,000,000    02/03/06
38   COMPTIA                                              IL            2,818,795    06/24/03
39   Alaska Dept. of Labor and Workforce Development      AK            7,000,000    07/19/05
     Total                                                        $   70,371,043                      8               2               4           10          13               2            2              19               9




     U.S. Department of Labor – Office of Inspector General                                                                                                                                                                           19
     Report Number: 02-08-201-03-390
High Growth Job Training Initiative




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                    U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 02-08-201-03-390
                                                         High Growth Job Training Initiative




Appendices




U.S. Department of Labor – Office of Inspector General                                    21
Report Number: 02-08-201-03-390
High Growth Job Training Initiative




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                    U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 02-08-201-03-390
                                                          High Growth Job Training Initiative


                                                                              APPENDIX A
BACKGROUND

HGJTI was a strategic effort to prepare workers to take advantage of new and
increasing job opportunities in high growth, high demand, and economically vital sectors
of the American economy. BRG served as the program office within ETA that was
responsible for HGJTI. In carrying out this mission, DOL awarded grants to model
programs using discretionary funding for this activity as authorized under
Title I of the Workforce Investment Act, and starting in mid-2005, utilizing H-IB
Nonimmigrant Petitioner fees under the amended American Competitiveness and
Workforce Development Act of 1998.

During the period July 1, 2001 through March 31, 2007, ETA awarded 157 HGJTI
grants totaling $271 million in HGJTI grants. Of this, ETA accepted unsolicited
proposals and awarded 133 grants totaling $235 million (87 percent) through non-
competitive procurement methods. One grant for $7 million was awarded to a specific
entity based on Congressional direction. The remaining 23 grants for $29 million were
awarded competitively.

This initiative was taken by ETA to engage business, education and the workforce
investment system to work together to develop solutions to the workforce challenges
facing high growth industries. Fields like health care, information technology, and
advanced manufacturing have jobs and solid career paths left vacant due to a lack of
people qualified to fill them. The purpose of HGJTI is to target education and skills
development resources toward helping workers gain the skills they need to build
successful careers in these and other growing industries.

ETA identified 13 sectors that fit within the following criteria: (1) they are projected to
add substantial numbers of new jobs to the economy or affect the growth of other
industries; or (2) they are existing or emerging businesses being transformed by
technology and innovation requiring new skill sets for workers. BRG held a total of 52
meetings and seminars, and presented HGJTI grants as a funding source for unsolicited
proposals. During the period 2001 through 2006, meeting participants responded and
forwarded unsolicited proposals to BRG.

ETA officials stated that they awarded the first round of grants non-competitively with
the intent to move to competitive opportunities in future rounds. According to officials,
the non-competitive route allowed for the ability to fund demonstrations that closely
aligned with each of the workforce challenges and solutions identified by industry. For
Fiscal Year 2007, subsequent to the audit period, ETA was required by Congress to
award HGJTI grants competitively. On January 4, 2007, Revised Continuing
Appropriations Resolution, 2007 Chapter 6 Section 20601 a (3) states:

       The Secretary of Labor shall award the following grants on a competitive
       basis… (B) grants for job training for employment in high growth



U.S. Department of Labor – Office of Inspector General                                     23
Report Number: 02-08-201-03-390
High Growth Job Training Initiative


       industries awarded during fiscal year 2007 under section 414(c) of the
       American Competitiveness and Workforce Improvement Act of 1998.




24                                     U.S. Department of Labor – Office of Inspector General
                                                           Report Number: 02-08-201-03-390
                                                          High Growth Job Training Initiative


                                                                              APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY AND CRITERIA


Objective

Our audit objective was to determine if proper procurement procedures were followed in
awarding non-competitive HGJTI grants during the audit period of July 1, 2001, to
March 31, 2007.

Scope

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We tested 39 of the 134, or 29 percent, of total non-competitive grants awarded. Grant
costs were not audited to determine whether they were allowable, allocable, and
reasonable with Federal regulations. Fieldwork was conducted at ETA Headquarters in
Washington, D.C.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan our performance
audit, we considered whether internal controls significant to the audit were properly
designed and placed in operation.

Methodology

In planning and performing our audit, we considered internal controls of ETA’s
procurement procedures by obtaining an understanding of the program’s internal
controls, determining whether internal controls had been placed in operations,
assessing control risk, and performing tests of controls in order to determine our
auditing procedures for the purpose of achieving our objectives.

Our consideration of ETA’s procurement controls would not necessarily disclose all
matters that might be reportable conditions. Because of inherent limitations in internal
controls, misstatements, losses, or noncompliance may nevertheless occur and may not
be detected.

We reviewed grant files, justification of award program files, unsolicited grant proposals,
and PRB files. We interviewed ETA staff and managers, including manpower analysts,
known as “Industry Leads.”



U.S. Department of Labor – Office of Inspector General                                     25
Report Number: 02-08-201-03-390
High Growth Job Training Initiative




A reconciliation was performed between HGJTI grants reported as procured on ETA's
website, and ETA’s electronic database of all grants. The reconciliation determined that
there were 157 HGJTI grants. There were seven grants over $5 million, of which four
grants were judgmentally selected. The remaining 150 grants totaling $233 million were
statistically sampled using an unrestricted attribute random sampling plan. From these,
a sample was selected of 31 grants using a 10 percent error rate, 95 percent confidence
level, and 9 percent precision. The analysis of the sample was conducted and the
variance was within +/-5 percent. The sample was increased to judgmentally include
the remaining four grants under $100,000.

Included in the universe provided by ETA was a $7 million grant that ETA later informed
us should have been excluded from the universe because ETA awarded this grant to a
specific entity based on Congressional direction. However, we kept the grant in the
universe because it had an HGJTI grant number and was listed in ETA’s grant database
as HGJTI.




26                                     U.S. Department of Labor – Office of Inspector General
                                                           Report Number: 02-08-201-03-390
                                                                     High Growth Job Training Initiative




Criteria

Federal Grant and Cooperative Agreement Act

Workforce Investment Act (WIA) Section 171

Employment and Training (ET) Order 1-03
                                            5
Department of Labor Manual Series


5
 DLMS 2-836(G) - Exclusions and Exceptions to Competitive Procedures for grants and
cooperative agreements

The Federal Grant and Cooperative Agreement Act encourage competition, where deemed appropriate,
in the award of grants and cooperative agreements. Competition is deemed appropriate in awarding
discretionary grants and cooperative agreements unless one or more of the following exceptions apply:

     (1) A non-competitive award is authorized or required by the statute funding the program.

     (2) The activity to be funded is essential to the satisfactory completion of an activity presently
         funded by DOL, wherein competition would result in significant or real:
             (a) harm (further harm) to the public good; or
             (b) expenses in excess of any potential savings to the Government; or
             (c) disruption to program services; or
             (d) duplication of work at additional cost to the Government, or
             (e) delay in the time of program completion.

     (3) Services are available from only one responsible source and no substitute will suffice; or the
         recipient has unique qualifications to perform the type of activity to be funded.

     (4) The recipient has submitted an unsolicited proposal that is unique or innovative and has
         outstanding merit.

     (5) The activity will be conducted by an organization using its own resources or those donated or
         provided by third parties, and DOL support of the activity would be highly cost effective.

     (6) It is necessary to fund a recipient that has an established relationship with the agency in order
         to:
               (a) Maintain an existing facility or capability to furnish services or benefits of particular
                   significance to the agency on a long term basis; or
               (b) Maintain a capability for investigative, scientific, technical, economic, or
                   sociological research.

     (7) The application for the activity was:
            (a) evaluated under the criteria of the competition for which the application was submitted;
            (b) rated high enough to have deserved selection under that competition; and
            (c) not selected for funding because the Department mishandled the application.

     (8) The Secretary has determined that a noncompetitive award is in the public interest. This
         authority may not be delegated.



U.S. Department of Labor – Office of Inspector General                                                     27
Report Number: 02-08-201-03-390
High Growth Job Training Initiative




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                    U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 02-08-201-03-390
                                                         High Growth Job Training Initiative


                                                                             APPENDIX C
ACRONYMS AND ABBREVIATIONS


BRG           Business Relations Group

DLMS          Department of Labor Manual Series

DOL           Department of Labor

ETA           Employment and Training Administration

GAO           Government Accountability Office

HGJTI         High Growth Job Training Initiative

NCNE          National Center for Neighborhood Enterprise

OIG           Office of Inspector General

PRB           Procurement Review Board

PY            Program Year

WIA           Workforce Investment Act




U.S. Department of Labor – Office of Inspector General                                    29
Report Number: 02-08-201-03-390
High Growth Job Training Initiative




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




30                                    U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 02-08-201-03-390
                                                         High Growth Job Training Initiative


                                                                             APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor – Office of Inspector General                                    31
Report Number: 02-08-201-03-390
High Growth Job Training Initiative




32                                    U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 02-08-201-03-390
                                                         High Growth Job Training Initiative




U.S. Department of Labor – Office of Inspector General                                    33
Report Number: 02-08-201-03-390
High Growth Job Training Initiative




34                                    U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 02-08-201-03-390
                                                         High Growth Job Training Initiative




U.S. Department of Labor – Office of Inspector General                                    35
Report Number: 02-08-201-03-390
High Growth Job Training Initiative




36                                    U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 02-08-201-03-390
                                                         High Growth Job Training Initiative




U.S. Department of Labor – Office of Inspector General                                    37
Report Number: 02-08-201-03-390
High Growth Job Training Initiative




38                                    U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 02-08-201-03-390
                                                         High Growth Job Training Initiative




U.S. Department of Labor – Office of Inspector General                                    39
Report Number: 02-08-201-03-390
High Growth Job Training Initiative




40                                    U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 02-08-201-03-390
                                                         High Growth Job Training Initiative




U.S. Department of Labor – Office of Inspector General                                    41
Report Number: 02-08-201-03-390
High Growth Job Training Initiative




42                                    U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 02-08-201-03-390
                                                         High Growth Job Training Initiative




U.S. Department of Labor – Office of Inspector General                                    43
Report Number: 02-08-201-03-390
